CERTIFICATE OF SERVICE
NO. TBD
Citizens Against Corporate Crime, LLC
Petitioner,
v.
Lennar Corp.
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the CITIZENS
AGAINST CORPORATE CRIME, LLC PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and
correct copies of the same by Fedex 2-Day, prepaid for delivery to the following address.
Daniel M. Petrocelli
O'Melveny & Myers
400 South Hope Street
18th Floor
Los Angeles, CA 90071
(213) 430-6000
dpetrocelli@omm.com
Counsel for Lennar Corp.

Lucas DeDeus

May 3, 2021
SCP Tracking: Barnes-700 South Flower Street-Cover White

